IN THE SUPREME COURT OF THE UNITED STATES

19A427

APPLE INC.,

Petitioner,
v.

VIRNETX INC., LEIDOS, INC.,

Respondents.

OPPOSITION TO AN APPLICATION FOR AN EXTENSION OF TIME
IN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE U.S. COURT OF APPEALS FOR THE FEDERAL CIRCUIT

To the Honorable John G. Roberts, Jr., Chief Justice of the United States
and Circuit Justice for the United States Court of Appeals for the Federal Circuit:
Applicant Apple Inc. ("Apple") seeks a 60-day extension of the time, to and
including December 30, 2019, to file a certiorari petition seeking review of an
unpublished summary affirmance issued by the court of appeals nine-and-a-half
months ago on January 15, 2019.

Respondents VirnetX Inc. ("VirnetX") and

Leidos, Inc. ("Leidos") respectfully request that the Court limit any extension to 35
days, to and including December 6, 2019.
1.

This case is nearly ten years old. It has been plagued by efforts to

delay its resolution-efforts sufficiently problematic that the district court, citing

2

Apple's "gamesmanship," found this case "exceptional"; enhanced damages; and
awarded attorney's fees. C.A. App. 64-65; see C.A. App. 57. As the district court
observed, Apple "repeatedly sought to
"proceedings

* * * stay the litigation" in favor of other

* * * even after receiving adverse rulings" from the district court and

"even after few, if any, relevant facts had changed since its last request." C.A.
App. 57. Apple also delayed proceedings through conflicts "it created" by hiring
VirnetX's former appellate counsel and jury consultant. C.A. App. 64-65.
Even in the court of appeals, the pattern continued. The parties agreed that
Apple would seek only one 60-day extension to file its opening brief (to which
VirnetX would not object), and would seek no further extensions. See C.A. Dkt. 34,
Ex. A. After seeking and obtaining the extension, Apple moved to stay the appeal
so as to delay the filing of its opening brief indefinitely. See C.A. Dkt. 32; see also

Wilton Indils., Inc. v. United States, 310 F. App'x 366, 367 (Fed. Cir. 2008) (a
"motion for a stay is in essence another motion for an extension of time"). On the
merits, the court of appeals eventually issued the decision below, summarily
affirming without an opinion, just one week after hearing oral arguments. Apple
then sought delay again: It used its rehearing petition as a sixth stay request,
asking for the appeal to be stayed pending resolution of unspecified appeals from
Patent Office proceedings.

C.A. Dkt. 82, at 16-17; see also C.A. Dkt. 34, at 1

(collecting earlier requests). After that request was denied, Apple unsuccessfully
moved to vacate the denial of rehearing, for leave to file a second rehearing

3

petition, and to stay the mandate indefinitely pending resolution of unspecified
Patent Office proceedings and appeals therefrom. See C.A. Dkt. 105.
Apple seeks delay because-as it told the court of appeals-it hopes that
proceedings in the Patent Office and any ensuing appeals will eventually result in
invalidation of the asserted patent claims. Apple thus tells this Court that the
"Patent Office has held all of the patent claims asserted against Apple to be
unpatentable." Apple Application 2. Apple does not mention that the Federal
Circuit has in three separate cases overturned Patent Office decisions purporting
to invalidate patent claims undergirding the judgments in this case. See VirnetX

Inc. v. Apple Inc., 931 F.3d 1363, 1380 (Fed. Cir. 2019); VirnetX Inc. v. Mangrove
Partners Master Fund, Ltd., - F. App'x -, 2019 WL 2912776, at *1 (Fed. Cir.
July 8, 2019); VirnetX Inc. v. Cisco Sys., Inc., 776 F. App'x 698, 700 (Fed. Cir.
2019). Apple overlooks that the Federal Circuit long ago upheld the validity of the
patents at issue in this case. See VirnetX Inc. v. Cisco Sys., Inc., 767 F.3d 1308,
1323-1324 (Fed. Cir. 2014) (attached as Apple Application Ex. 1). Nor does Apple
suggest that it will ask this Court to review the Federal Circuit's validity ruling.
As a result, the entire judgment in this case remains supported by patent claims
upheld by the Federal Circuit on appeal. C.A. Dkt. 101, at 19-21 & n.1; see C.A.
Dkt. 92, at 4-10. Having had a decade to challenge patent validity, Apple is not
entitled to further delay. In view of Apple's pattern of delay, and the outsized

4

effect of a longer extension, respondents respectfully request that Apple's
extension of time be limited to 35 days. 1
2.

The absence of "good cause" for a 60-day extension is underscored by

Apple's failure to identify any issue that plausibly warrants this Court's review.
The sole issue Apple identifies concerns "the Federal Circuit's interpretation of
this Court's requirement, set forth in Garretson v. Clark, 111 U.S. 120 (1884), that
patent damages must always be apportioned to reflect the value of the patented
invention." Apple Application 3. Apple overlooks that, when the Federal Circuit
addressed apportionment in this case five years ago, it "agree[ d] with Apple"
concerning Garretson's apportionment requirement. VirnetX Inc. v. Cisco Sys.,

Inc., 767 F.3d 1308, 1327 (Fed. Cir. 2014); see also id. at 1328-1329, 1331-1334
("agree[ing]" with additional Apple arguments). 2 Apple does not explain how it
may seek review of an apportionment issue on which it prevailed.
The Federal Circuit's most recent decision-the only other one from which
Apple may seek review-says nothing about apportionment. The Federal Circuit

1

January 8, 2020, is the last distribution date for paid petitions to be considered at
a conference in January. The next conference is not until February 21. An
extension much beyond December 6, 2019, would leave respondents with little time
to prepare a brief in opposition and still have the petition considered at a January
conference.
2
The Federal Circuit disagreed with Apple's damages arguments only on a factbound issue unrelated to apportionment-whether the district court had "abused
its discretion" in determining that six prior licenses were sufficiently "comparable"
to be admitted into evidence. 767 F .3d at 1330-1331. Apple did not seek further
review of that decision, either in the court of appeals or this Court.

5

affirmed without an opinion because the issues were so straightforward that "an
opinion" addressing Apple's challenges "would have no precedential value." Fed.
Cir. R. 36; see Apple Application Ex. 2 (citing Federal Circuit Rule 36). Despite
the Federal Circuit's admonition against seeking rehearing en bane of unpublished
decisions, Practice Note to Fed. Cir. R. 35, Apple sought rehearing en bane. The
full court denied Apple's request, with no judge requesting a vote on whether to
grant rehearing en bane. Compare Apple Application Ex. 3, with Fed. Cir. IOP
14.l(f) (order denying rehearing must state if vote is requested). Apple does not
explain how the unpublished decision below presents any issue warranting this
Court's review.

See Sup. Ct. R. 10.

Given that the Federal Circuit's earlier

decision in this case "agree[d] with" Apple's apportionment arguments, and that
the Federal Circuit's most recent decision affirmed without an opinion, it is hard to
see how Apple's petition could present any apportionment issue with any
significance beyond this case. That further weighs against Apple's request for a
60-day extension in this already much-delayed case.
3.

Rehearing was denied on August 1, 2019. Neither of the two counsel

listed on Apple's application mentions other commitments for two-thirds of the
standard 90-day period for seeking this Court's review. See Apple Application 2-3. 3
The underlying decision, moreover, was issued more than nine months ago. Apple
Application Ex. 2.
3

That decision was a summary affirmance. Because the issues

Mr. Davies mentions no commitments in October either. See Apple Application 2.

6

were so straightforward that "an opinion" addressing Apple's challenges "would
have no precedential value," Fed. Cir. R. 36, Apple had little reason to await the
inevitable denial of rehearing before considering any effort to seek this Court's
review. Apple does not require an extension, to nearly a year after the Federal
Circuit issued its summary affirmance, to seek review. Under the circumstances,
respondents respectfully submit that a 35-day extension would be amply sufficient.

Donald Urrabazo
P.C.
2029 Century Park East
Suite 1400
Los Angeles, CA 90067
(310) 388-9099
durrabazo@ulawpc.com

The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

Counsel for Respondent Leidos, Inc.

Counsel for Respondent VirnetX Inc.

URRABAZO LAW,

October 18, 2019

